<html>
<title> - VOYAGEURS NATIONAL PARK AND BOUNDARY WATERS CANOE AREA</title>
<body><pre>[House Hearing, 104 Congress]
[From the U.S. Government Publishing Office]



 
                       VOYAGEURS NATIONAL PARK AND BOUNDARY WATERS CANOE AREA                                                                                   
  ______________________________________________________________________________________________   
  
                                      OVERSIGHT HEARING
                                                
                                         BEFORE THE   
                                            
                              SUBCOMMITTEE ON NATIONAL PARKS, FORESTS
                            
                                         AND LANDS    
                                                                                                                                                           
                                            OF THE
                                               
                                   COMMITTEE ON RESOURCES                                    
                                                                             
                                   HOUSE OF REPRESENTATIVES
                                   
                                         AND THE
                                         
                             SUBCOMMITTEE ON PARKS, HISTORIC
                           
                                PRESERVATION AND RECREATION
                            
                                        U.S. SENATE                                         
                                                                       
                                  ONE HUNDRED FOURTH CONGRESS
                                     
                                          FIRST SESSION
                                          
                                              ON    
                                              
                     FEDERAL LAND MANAGEMENT OF VOYAGEURS NATIONAL PARK
                              AND BOUNDARY WATERS CANOE AREA                        
                                   ___________________
                                     
                        AUGUST 18, 1995-INTERNATIONAL FALLS, MINNESOTA 
                                     (JOINT HEARING) 
                                     
                        OCTOBER 28, 1995--ST. PAUL, MINNESOTA 
                                 (HOUSE COMMITTEE ONLY)
                     
                                    ______________________      
                                 
                                      Serial No. 104-43
                                   _____________________                                 
                                     
                               
                 Printed for the use of the House Committee on Resources and Senate
                             Committee on Energy and Natural Resources
                    
                              
                
                
                
                

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                               U.S. GOVERNMENT PRINTING OFFICE
                               
  21-253CC                            WASHINGTON : 1996
  _____________________________________________________________________________________
  
                     For sale by the U.S. Government Printing Office
                     
    Superintendent of Documents, Congressional Sales Office, Washington, DC 20402

                                 ISBN 0-16-052179-3
                                 
                                 
                                 
                                 
                                 

 [TEXT NOT AVAILABLE]



</pre></body></html>
